No. 19-825
IN THE

&wane Court of the aniteb Otateli
FEDERAL TRADE COMMISSION,
Petitioner,
v.
CREDIT BUREAU CENTER, LLC, et al.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

OPENING BRIEF FOR RESPONDENTS
CREDIT BUREAU CENTER, LLC AND
MICHAEL BROWN

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,385 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 25, 2020.

Cohn Casey Hogan
Wilson-Epes Printing Co., Inc.

